Annual Percentage Rate
(APR) for Purchases

36.0%

APR for Cash Advances 36.0%
Paying Interest

Minimum Interest
Charge
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

O

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

LI

N

Set-up and
Maintenance
Fees

$29.00
$30.00

$49.00

N

$120.00

$149.40

Transaction Fees

3%

E

$8.00

5%

Penalty Fees

$39.00

Billing Rights:

PY

O

How We Will Calculate Your Balance:

C

$39.00

Program Fee:
Available Credit Limitations:
FEES AND INTEREST CHARGES:
FEES AND INTEREST CHARGES:
INTEREST CHARGES
Periodic INTEREST CHARGES: INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
INTEREST CHARGES
How we calculate INTEREST CHARGES:
INTEREST CHARGE
CHARGE

Average Daily Balance

How we calculate Average Daily Balance and Daily Periodic Rate:

Average Daily Balance
INTEREST CHARGE
Average Daily Balance

O

Average Daily Balance
Daily Balances
Average Daily Balance
Daily Balance

Daily Periodic Rate
ANNUAL PERCENTAGE RATE
assessed to your Credit Account.
Minimum INTEREST CHARGE:
INTEREST CHARGE

Cash Advance Fee:

INTEREST CHARGE

LI

Monthly Fee:

The APR applicable to Purchases will be applied to fees

N

Annual Fee:

INTEREST CHARGE
INTEREST
Daily Periodic Rate

INTEREST CHARGE

Foreign Currency Transaction Fee:
Late Payment Fee:

E

N

Return Item Charge:

OTHER CHARGES AND IMPORTANT INFORMATION:
Additional Card Fee:
Credit Limit Increase Fee:

O

C

Copying Fee:
Credit Insurance:
Express Delivery Fee:
Wire Transfer Fee:
Total Minimum Amount Due:

PY

See the Credit Card Contract for further information regarding this
Credit Account. Retain these important documents.

dispute waive their rights to file a lawsuit, to proceed in court and to a jury trial,
and instead submit their disputes to a neutral third person (an arbitrator) for a
binding decision. You have the right to opt out of this Arbitration Provision if you
follow the instructions set out in the paragraph titled “Right to Opt Out” below.
PLEASE READ THIS PROVISION CAREFULLY. IT PROVIDES THAT
ALL DISPUTES ARISING OUT OF OR RELATED TO THIS CREDIT
CARD CONTRACT SHALL BE RESOLVED BY BINDING ARBITRATION.
ARBITRATION REPLACES THE RIGHT TO GO TO COURT. IN THE
ABSENCE OF THIS ARBITRATION AGREEMENT, YOU AND WE MAY
OTHERWISE HAVE HAD A RIGHT OR OPPORTUNITY TO BRING CLAIMS
IN A COURT, BEFORE A JUDGE OR JURY AND/OR TO PARTICIPATE IN OR
BE REPRESENTED IN A CASE FILED IN COURT BY OTHERS (INCLUDING,
BUT NOT LIMITED TO, CLASS ACTIONS). EXCEPT AS OTHERWISE
PROVIDED, ENTERING INTO THIS AGREEMENT CONSTITUTES A
WAIVER OF YOUR RIGHT TO LITIGATE CLAIMS IN COURT BEFORE A
JUDGE OR JURY.
RIGHT TO OPT OUT: To opt out of this Arbitration Provision, you must mail
a written notice to us so that it is postmarked no later than 45 days after
we mail your first Card to you. Your first Card is the one we mail to you at
approximately the time your first Account application is approved. Your right to
opt out will not apply when we send you a copy of your Credit Card Contract
or this Provision, or when we send you an updated version of your Credit Card
Contract or this Provision, or when we send any replacement Card. If you opt
out of this Arbitration Provision, you will retain your right to litigate your dispute
in a court, either before a judge or jury. The opt out notice must include your
name, address, and Account number, must be signed by you (or all of you if
there is more than one Account holder) and must be mailed to us at: PO Box
5524, Sioux Falls, SD 57117-5524. If your written notice is not postmarked
within 45 days from the date we mail your first Card to you, your right to opt
out will terminate, and you agree that the terms of this Provision will apply.
Your decision to opt out of this Provision will not affect your other rights or
responsibilities under this Credit Card Contract.
If we later amend this Provision, we will let you know if you can opt out of that
amendment and, if so, how you can do so.
Parties and Matters Subject to Arbitration: For purposes of this Provision,
“we” and “us” include our employees, parent companies, subsidiaries, affiliates,
beneficiaries, agents and assigns and other persons and entities you assert a
Claim against in connection with a Claim you assert against us. For purposes
of this Provision, “Claim” means any claim, dispute or controversy by either you
or us, arising out of or relating in any way to this Credit Card Contract, your
Credit Account, any transaction on your Credit Account and our relationship.
“Claim” also refers to any interaction or communication between you and us
that occurred prior to or concurrent with entering into this Credit Card Contract,
including those now in existence, regardless of present knowledge. “Claim”
shall refer to claims of every kind and nature, including, but not limited to,
initial claims, counterclaims, cross-claims and third-party claims. All Claims are
subject to arbitration, regardless of legal theory and remedy sought, including,
but not limited to, claims based in contract, tort (including negligence, intentional
tort, fraud and fraud in the inducement), agency, statutory law (federal and
state), administrative regulations or any other source of law (including equity).
Notwithstanding the foregoing, the word “Claim” does not include any dispute
or controversy about the validity, enforceability, coverage or scope of this
Arbitration Provision or any part thereof; all such disputes or controversies are
for a court and not an arbitrator to decide. However, any dispute or controversy
that concerns the validity or enforceability of the Credit Card Contract as a
whole is for the arbitrator, not a court, to decide.
Agreement to Arbitrate: Any Claim shall be resolved and settled exclusively
and finally by binding arbitration, in accordance with this Provision. Binding
arbitration shall not be required, however, for collection actions we bring
in court if you default on your Credit Account as set forth in the Credit Card
Contract. Furthermore, both you and we retain the right to pursue in a small
claims court (or your state’s equivalent court) any Claim that is within that
court’s jurisdiction, so long as the matter remains in such court and advances
only on an individual (non-class, non-representative) basis. For any Claims

covered by this Provision, a party who asserted a Claim in a lawsuit in court
may elect arbitration with respect to any Claim subsequently asserted in that or
any related or unrelated lawsuit by any other party.
Class Action Waiver: If a Claim is arbitrated, neither you nor we will have the
right: (a) to participate in a class action, private attorney general action or other
representative action in court or in arbitration, either as a class representative
or class member; or (b) to join or consolidate Claims with Claims of any other
persons. An award in arbitration shall determine the rights and obligations of
the named parties only, and only with respect to the Claim(s) in arbitration,
and shall not (i) determine the rights, obligations, or interests of anyone other
than a named party, or resolve any Claim of anyone other than a named party;
nor (ii) make an award for the benefit of, or against, anyone other than a
named party. No arbitration administrator or arbitrator shall have the power
or authority to waive, modify, or fail to enforce this section, and any attempt to
do so, whether by rule, policy, arbitration decision or otherwise, shall be invalid
and unenforceable. Any challenge to the validity of this Class Action Waiver
shall be determined exclusively by a court and not by the administrator or any
arbitrator. Thus, you agree that UNDER THIS ARBITRATION PROVISION
THERE IS NO RIGHT OR AUTHORITY FOR ANY CLAIMS TO BE LITIGATED
IN COURT OR ARBITRATED ON A CLASS BASIS. Arbitration will only be
conducted on an individual Claim basis and there is no right or authority to
consolidate or join any of your Claims with any other Claims. YOU AGREE
THAT YOU ARE VOLUNTARILY AND KNOWINGLY WAIVING ANY RIGHT
TO PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF ANY CLASS
OF CLAIMANTS PERTAINING TO ANY CLAIM SUBJECT TO ARBITRATION
UNDER THIS PROVISION.
Voluntary Waiver of the Right to a Jury Trial: As a result of this Provision,
neither you nor we have the right to litigate any Claim in court or the right to
a jury trial on any Claim, except as provided above. YOU AGREE THAT YOU
ARE VOLUNTARILY AND KNOWINGLY WAIVING ANY RIGHT YOU MAY
HAVE TO GO TO COURT OR TO HAVE A JURY TRIAL.
Governing Law: This agreement to arbitrate is made pursuant to a transaction
involving interstate commerce and shall be governed by the Federal Arbitration
Act, 9 U.S.C. §§ 1-16, as it may be amended. If for any reason the Federal
Arbitration Act does not apply, the substantive law of the State of South Dakota
shall govern this Provision.
Arbitration Location and Procedure: Any arbitration hearing at which you
wish to appear will take place at a location within the federal judicial district
that includes your billing address at the time the Claim is filed. The party
bringing the Claim may file its Claim at the American Arbitration Association
(“AAA”), or an arbitration organization mutually agreed upon by the parties. The
arbitration organization that is selected will administer the arbitration pursuant
to its procedures in effect at the time of filing, subject to this Provision. If you
do not agree to file your claim with AAA, and the parties cannot agree on an
alternative arbitration organization, an arbitrator will be appointed by a court
pursuant to the Federal Arbitration Act. In the event of a conflict or inconsistency
between the respective organization’s rules and this Provision or the Credit
Card Contract, this Provision shall govern. The arbitration will be conducted
before a single arbitrator, whose authority is limited solely to individual Claims
between you and us. The arbitration will not be consolidated with any other
arbitration proceeding. Any decision rendered in such arbitration proceeding will
be final and binding on the parties, except for any appeal rights under the FAA,
and judgment may be entered in a court of competent jurisdiction. The rules
and forms of AAA may be obtained as follows: American Arbitration Association,
120 Broadway, Floor 21, New York, N.Y. 10271, website at www.adr.org.
Arbitrator’s Authority: The arbitrator shall apply the applicable substantive
law, consistent with the Federal Arbitration Act; shall apply statutes of limitation;
and shall honor claims of privilege recognized at law. In conducting the
arbitration proceeding, the arbitrator shall not apply any federal or state rules of
civil procedure or evidence. THE RULES AND PROCEDURES OF THE AAA
OR OTHER ARBITRATION ORGANIZATION WILL GOVERN THE RIGHT TO
ENGAGE IN PRE-ARBITRATION DISCOVERY. Either party may, however,
request to expand the scope of discovery. If a request is made, within 15 days
of the requesting party’s notice, the objecting party may submit objections to

E

N

the arbitrator with a copy of the objections provided to the party requesting
expansion. The grant or denial of a party’s request will be in the sole discretion
of the arbitrator, who shall notify the parties of the final decision within 20 days
of the objecting party’s submission.
The Arbitrator’s Award: The arbitrator may award any damages or other
relief or remedies that would apply under applicable law to an individual action
brought in court, including, without limitation, punitive damages (which shall be
governed by the Constitutional standards employed by the courts), attorneys’
fees and costs and injunctive, equitable and declaratory relief (but only in
favor of the individual party seeking relief and only to the extent necessary to
provide relief warranted by that party’s individual claim). At the timely request
of either party, the arbitrator shall write a brief explanation of the grounds for the
decision. Judgment upon the award rendered by the arbitrator may be entered
in any court having jurisdiction thereof. No arbitration award between you and
us will have any impact on any dispute involving anyone who is not a party to
the arbitration, nor will an arbitration award between us and any other person
have any impact to an arbitration between you and us.
Expenses: Regardless of who demands arbitration, we will pay all expenses
of arbitration, including the filing, administrative, hearing and arbitrator’s fees
(“Arbitration Fees”), to the extent that the Arbitration Fees exceed the amounts
you would be required to pay for filing a lawsuit in state or federal court,
whichever is less. If you have already paid a court filing fee, you will not be
required to pay it again. Throughout the arbitration, each party shall bear his
or her own attorney fees and expenses, such as witness and expert witness
fees. If you prevail in the arbitration of any Claim against us, we will reimburse
you for any fees you paid to the arbitration organization in connection with the
arbitration. The arbitrator will have the authority to award fees and costs of
attorneys, witnesses and experts to the extent permitted by this Credit Card
Contract, the administrator’s rules or applicable law. With respect to Claim(s)
asserted by you in an individual arbitration, we will pay your reasonable
attorney, witness and expert fees and costs if and to the extent you prevail, if
applicable law requires us to or if we must bear such fees and costs in order for
this Arbitration Provision to be enforced.
Binding Effect and Survival: You and we agree that, except as specifically
provided for above, the arbitrator’s decision will be final and binding on all
parties subject to this Provision. This Provision is binding upon you, us, and
the heirs, successors, assigns and related third parties of you and us. This
Provision shall survive termination of your account, whether it be through
voluntary payment of the debt in full by you, a legal proceeding initiated by
us to collect a debt that you owe, a bankruptcy by you or a sale of your Credit
Account by us.
Severability: If any part of this Provision is deemed or found to be unenforceable
for any reason, the remainder shall be enforceable, except as follows:
A. The parties to this Provision acknowledge that the provision
titled “Class Action Waiver” is
material and essential to the arbitration of
any disputes between the parties and is non-severable from this Provision. If
the Class Action Waiver is limited, voided or found unenforceable, then this
Provision (except for this sentence) shall be null and void with respect to
such proceeding, subject to the right to appeal the limitation or invalidation of
the Class Action Waiver. The parties acknowledge and agree that under no
circumstances will a class action be arbitrated.
B. If a Claim is brought seeking public injunctive relief and a court
determines that the restrictions in the Class Action Waiver and/or elsewhere
in this Provision prohibiting the arbitrator from awarding relief on behalf of third
parties are unenforceable with respect to such Claim (and that determination
becomes final after all appeals have been exhausted), the Claim for public
injunctive relief will be determined in court and any individual Claims seeking
monetary relief will be arbitrated. In such a case the parties will request that
the court stay the Claim for public injunctive relief until the arbitration award
pertaining to individual relief has been entered in court. In no event will a Claim
for public injunctive relief be arbitrated.

PY

O

C

ARBITRATION AND LITIGATION
This Arbitration Provision (“Provision” or “Arbitration Provision”) facilitates the
prompt and efficient resolution of any disputes that may arise between you and
us. Arbitration is a form of private dispute-resolution in which persons with a

LI

STATE DISCLOSURES
California Residents: A married applicant may apply for a separate Credit
Account. As required by law, you are hereby notified that a negative credit
reporting reflecting on your credit record may be submitted to a Consumer
Reporting Agency if you fail to fulfill the terms of your credit obligations. After
credit approval, each applicant shall have the right to use the Credit Account
up to the limit of the Credit Account. Each applicant may be liable for amounts
extended under the plan to any joint applicant.
Delaware Residents: Service charges not in excess of those permitted by law
will be charged on the outstanding balances from month to month.
Kentucky Residents: You may pay the unpaid balance of your Credit Account
in whole or in part at any time.
Maryland Residents: Finance charges will be imposed in amounts or at rates
not in excess of those permitted by law.
Maine Residents: Credit insurance provided herein is voluntary and you have
the right to cancel such credit insurance at any time.
Vermont Residents: First PREMIER Bank may obtain a consumer report
for any legitimate purpose in connection with your Credit Account or your
application, including but not limited to reviewing, modifying, renewing and
collecting on your Credit Account. Upon your request, we (First PREMIER
Bank) will inform you of the names and addresses of any Consumer Reporting
Agencies that have furnished the reports.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all credit worthy customers, and that Consumer
Reporting Agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this
law.
Married Wisconsin Residents: No provision of any marital property
agreement, unilateral statement, or court order applying to marital property will
adversely affect a creditor’s interests unless prior to the time credit is granted,
the creditor is furnished with a copy of the agreement, statement, or court order,
or has actual knowledge of that provision.
Washington Residents: A service charge will be computed on the outstanding
balance for each month. You may at any time pay your total unpaid balance.

N

YOUR BILLING RIGHTS
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement: If you think there is an
error on your statement, write to us at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
(You may also contact us on the Web: www.mypremiercreditcard.com.)
In your letter, give us the following information:
• Account information: Your name and Credit Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least three business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may
call us, but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter: When we receive your
letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your Statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50.00
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases: If
you are dissatisfied with the goods or services that you have purchased with
your credit Card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the Purchase.
To use this right, all of the following must be true:

(1) The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been more
than $50.00. (Note: Neither of these are necessary if your Purchase was based
on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
(2) You must have used your credit Card for the Purchase. Purchases made
with Cash Advances from an ATM or with a check that accesses your Credit
Account do not qualify.
(3) You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase,
contact us in writing (or electronically) at:
First PREMIER Bank
P.O. Box 5524
Sioux Falls, SD 57117-5524
www.mypremiercreditcard.com
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.
Your Liability for Unauthorized Use of Your Credit Account: You will not be
liable for unauthorized use of your Card or Credit Account. However, to protect
your rights, you are required to notify us orally or in writing as soon as you are
aware that your Card or Credit Account has been lost, stolen or used without
your consent. Certain exceptions apply. To notify us of the loss, theft or possible
unauthorized use of your Card, call us at 1-800-987-5521, 24 hours a day.

O

Credit Account for any unlawful purpose or for any gambling transaction, you
will be responsible for such use and may be required to reimburse us for all
amounts or expenses we pay as a result of such use.
Call Recording: You agree and consent that we will record and may monitor
any calls between you and us. This includes both calls to and originated by First
PREMIER Bank, PREMIER Bankcard, LLC, our parent corporation, or any of
our affiliates, agents, independent contractors or service providers.

M-131932

PFNA

08/20

First PREMIER Bank
CREDIT CARD CONTRACT AND
ACCOUNT OPENING DISCLOSURES (cont’d)
This Contract explains the terms and conditions of your Credit Account with
us, including important provisions relating to arbitration and litigation. For
additional important information on fees and INTEREST CHARGES and
other contract provisions that apply to your Credit Account, please review
the Account Opening Disclosures printed on the card carrier containing
your Card. Be sure to retain all Contract documents for future reference.
YOUR CONTRACT WITH US
Your Mastercard® or Visa® brand Credit Account is governed by the terms and
conditions in this Contract and the Account Opening Disclosures printed on the
card carrier containing your Card (“Contract”).
Applicable Law: No matter where you live, our Contract with you and the terms
of your Credit Account will be governed by the laws of the State of South Dakota
and applicable federal law.
Effective Date: Unless you are a resident of the State of New York, this
Contract is effective upon the earlier of (1) the first Purchase made or Cash
Advance taken on your Credit Account, and (2) the expiration of 30 days from
the date we issue the Card to you if you do not provide us written notice of
your desire to cancel within this 30 days. If you are a resident of the State of
New York, this Contract is not effective until the earlier of (1) the first Purchase
made or Cash Advance taken on your Credit Account, and (2) the date you
move from the State of New York, unless the date you move from the State of
New York is less than 30 days from the date we issue a Card to you, in which
case this Contract will be effective on the date that is 30 days from the date we
issue a Card to you (and not the date you move from the State of New York) if
you do not provide us written notice of your desire to cancel within this 30 days.
In all cases, if any fees are required to be paid prior to opening your Credit
Account, this Contract will not be effective and your Credit Account will not be
opened until such fees are paid in full. You are not obligated to pay any fees or
INTEREST CHARGES (other than any fees required to be paid prior to opening
your Credit Account) until this Contract is effective.
DEFINITIONS USED IN THIS CONTRACT
In this Contract, “we”, “us” and “our” each refer to First PREMIER Bank (the
“Bank”).
“Authorized User” means any person authorized by you to use the Card or
Credit Account.
“Billing Cycle” begins on the day after the Statement Closing Date of the
previous Statement and includes the Statement Closing Date of the current
Statement.
“Card” means all the plastic credit cards we issue to you or any other person
who is authorized to use the Credit Account. In the event we issue other
devices by which you can access your Credit Account, those devices will also
be “Cards” for purposes of this Contract.
“Closing Date” means the last day of any Billing Cycle.
“Credit Account” means the credit card account that we open for you and the
relationship that is established between you and us by this Contract. This Credit
Account is used to record transaction activity made by you when you access
or otherwise utilize the line of credit we extend to you when you use your Card.
“New Balance” means the outstanding balance of your Credit Account at the
end of any Billing Cycle. The New Balance is the sum of the Previous Balance
(defined as the New Balance shown on your last Statement) less payments
and credits, plus new Cash Advances and Purchases and our charges posted
during the Billing Cycle.
“Payment Due Date” means the date we must receive your payment, which is
not less than 27 days from the Closing Date.

authorizations, such as hotels, motels and car rental. Such an authorization
may limit your ability to make Purchases and take Cash Advances on your
Credit Account until the authorization is canceled by the merchant and your
available credit is released.
Electronic Check Presentment: When you send us a personal check, you
authorize us to either use information from your check to make a one-time
electronic transfer from your account, or to process the payment as a check
transaction. If your check is processed electronically, your canceled check will
not be returned to you by your financial institution. We will retain an image of
your electronically processed check(s) as required by law. If requested prior
to the time we are allowed by law to destroy electronically processed checks,
we will provide you with a copy of your electronically processed check(s) upon
your request. Funds may be withdrawn from your bank account as soon as
the day your payment is received. We agree to accept your checking account
statement as proof of payment. The description on your checking account
statement will read: PREMIER CR CARD CHECK-PAYMT, serial number of
the check, amount of the payment and date of the transaction. If you choose
to opt out of electronic check presentment, please call our Customer Service
Department at 1-800-987-5521.
Late Payments: We may accept late payments, partial payments or checks or
other payment instruments marked to impose terms or conditions of acceptance
such as “paid in full” without waiving any of our rights under this Contract,
and no attempt by you to impose any term or condition of acceptance will be
effective against us. Satisfaction of a debt for less than the full amount due or
imposition of any other term or condition on us requires a written agreement,
signed by an authorized Bank representative.
DEFAULT PROVISIONS
Events of Default: You will be in default of this Contract if any of the following
occur on this or any Related Credit Account:
• You do not pay at least the Total Minimum Amount Due on your Credit
Account on or before the Payment Due Date.
• You die or become legally incompetent.
• You become insolvent or bankrupt.
• You exceed or attempt to exceed your Credit Limit.
• You provide us with or have provided us with false or misleading
information or signatures at any time.
• You fail to comply with this Contract.
• You fail to make any payment or perform any promise in any agreement
or obligation you have with us.
• Any judgment, lien, attachment or execution is issued against you or your
property.
• You request an excessive number of replacement Cards.
• We reasonably believe that you will not pay amounts owed to us for any
reason.
If You Are In Default: Upon your default of this Contract, we will have all
remedies provided by law including, without limitation, and without prior notice
or demand, the right to:
• Deny use of your Credit Account.
• Close or refuse to renew your Credit Account.
• Demand the return of your Card(s).
• Declare your entire balance immediately due and payable.
• Initiate collection activity.
• Not replace your Card(s).
Collection Costs: To the extent permitted by law, you must pay all court and
collection costs, including reasonable attorneys’ fees, the costs of placing your
Credit Account in the Warning Bulletin and the costs of confiscating your Card,
that we incur as a result of your default.

E

N

ABOUT YOUR PAYMENTS
Amount of Payment, Avoiding Late Fees, and Payment Instructions: You
must make a payment by the Payment Due Date in each billing cycle that has
a New Balance. The amounts you owe are shown in the “Payment Information”
box on the first page of your Statement. To avoid a Late Payment Fee, we must
receive a payment at least equal to the Minimum Payment plus the Past Due
Amount shown on your Statement by 5 pm Central Time (referred to as the
payment cutoff time) on your Payment Due Date. You can make a payment
by mail, by phone, by bill payment service, or online. Instructions on making a
payment and when the payment will be credited to your account are included on
your Statement. Generally, credits from merchants are not treated as payments
and will not reduce the amount you must pay each Billing Cycle. The Payment
Due Date will be at least 27 days from the Statement Closing Date. Your
Payment Due Date will be the same date each month. You can pay all or any
portion of your balance owed on your Account at any time.
Applying Your Payments: We may apply your payment to whichever
balances we choose to the extent it does not exceed the Total Minimum Amount
Due shown on your Statement. The amount of your payment in excess of the
Total Minimum Amount Due will be applied to balances subject to the highest
APR prior to balances subject to lower APRs. We may apply your payment to
principal amounts, INTEREST CHARGES, fees and other charges in any order
we choose, and we may change the order of application of payments from time
to time at our discretion.
Availability of Credit: Available credit created as a result of payments posted
to your Credit Account may not be available for up to 20 days, or even longer if
circumstances warrant an additional hold, or if we deem ourselves at risk for any
reason. Your available credit may be limited, from time to time, if you provide
your Credit Account number or Card to a merchant that processes advance

Account is closed, you remain responsible for paying any amounts you owe
on the Credit Account according to the terms of this Contract. If this is a joint
Credit Account, either of you may request that the Credit Account be closed and
we will honor that request. If your account is billed a Monthly Fee, refer to the
Account Opening Disclosures included on the credit card carrier for information
about the billing of the fee when the account is closed. If your account is billed
an Annual Fee or Monthly Fee, refer to the back of your monthly Statement for
information on how to avoid the fees.
Non Use Inactivity Closure: If you have never made a payment or used
your Credit Account for a Purchase or Cash Advance, your Credit Account
will be automatically closed, and all fees posted to your Credit Account will be
reversed, when your Credit Account becomes 50 days delinquent (75 days from
the initial Statement Closing Date if you are a resident of the State of New York).
REFUND DISCLOSURE
Initial Fee Refunds: The following describes our policy concerning the refund
of the Program Fee and initial fees (those fees that are billed on your first
statement):
When we will provide a full refund. We will refund the Program Fee and
initial fees if you have not made a Purchase or obtained a Cash Advance
and either of the following are true:
• Your account is closed within 11 days following the payment due
date shown on your first billing statement; or
• Your account is closed before you pay anything after receiving a
billing statement.
When we will provide a partial refund. If your account is closed more
than 11 days after the payment due date on your first billing statement,
we will refund the unpaid amount of the outstanding fees even if you have
made a payment after receiving a billing statement as long as you have
not made a Purchase or obtained a Cash Advance. However, we will not
refund any amount you have previously paid, including the Program Fee
or any other fees billed to your account.
When we will not provide a refund. We have no obligation to refund fees
or interest after you make a Purchase or obtain a Cash Advance following
receipt of these disclosures.
We will also refund any amount of the Program Fee you have paid if your
account is not opened within 85 days after we approve your application.
Credit Limit Increase Fee Refunds: We will refund the Credit Limit Increase
Fee if you reject the credit limit increase within 30 days after the date of the
billing statement on which the fee is billed. This will result in a reversal of the
credit limit increase.
OTHER TERMS AND CONDITIONS
Severability: If any provision of this Contract is invalid or unenforceable, it shall
not affect the validity or enforceability of any other provision of this Contract.
Changing This Contract: We may change this Contract from time to time.
For example, we may change your Credit Account number or the Minimum
Payment, add new INTEREST CHARGES or fees, change the ANNUAL
PERCENTAGE RATE or change the method of computing the balance upon
which we impose INTEREST CHARGES. We may also make other changes.
We will notify you in writing of any change if required by law. Contract changes
will apply to amounts you owe at the time the change is effective and to new
transactions on your Credit Account, unless otherwise required by law.
Use of Credit Reports: You authorize us to access and use your credit reports
from the consumer reporting agencies for any purpose permitted by law
which may include whether to extend, increase, or decrease credit, reviewing,
renewing or servicing your Credit Account, or determining whether to offer other
products or services to you.
Information Sharing: The following describes your agreement with us with
respect to information sharing. By requesting, obtaining or using a Credit
Account from us you agree that we may release information in our records
regarding you and your Credit Account:
• To comply with any properly served subpoena or similar request issued
by a state or federal agency or court.

PY

O

C

RECEIVING STATEMENTS, OTHER INFORMATION AND
COMMUNICATIONS FROM US
Where We Send Statements: We will send Statements and any other notices
to you at the address shown in our files. If this is a joint Credit Account, we
can send Statements and notices to either of you. You agree to notify us
promptly of any change in your address. We may accept address changes
or corrections from the United States Postal Service. We may also mail
Statements and other communications to you at any address we determine to
be an address at which you can receive mail. If you elect to receive Statements
and other communications electronically, we may send those Statements and
communications as directed by you.
When You Receive Your Statements: We will send you a Statement at the
end of each monthly Billing Cycle in which your Credit Account has a debit
or credit balance of more than $1.00, if an INTEREST CHARGE has been
imposed or if other account activity has occurred. Your Statements will arrive
around the same time each month, however we reserve the right to change the
date of your Billing Cycle at any time.
Understanding Your Statement: The Statements we send to you will reflect
the activity and our INTEREST CHARGES and other charges, costs and fees
on your Credit Account during the Billing Cycle. They will also show your Total

LI

USING YOUR CREDIT ACCOUNT
Your Promise To Pay: You agree to pay us for all charges, Cash Advances,
INTEREST CHARGES, Purchases and fees incurred on your Credit Account

Minimum Amount Due and Payment Due Date, which is the date by which we
must receive payment. The information contained on the Statement will be
deemed to be correct unless you advise us in writing of any error within 60 days
of the date on which we send your Statement. If there are more than one of you
living at different addresses, we will send the Statements only to the person
named as the “Applicant” in your application.
Consent to calls and messages using autodialer, prerecorded message
and artificial voice: You agree and expressly consent that we and our agents,
affiliates, contractors, subcontractors, and assignees may call or contact you
at any cellular, mobile, home, work, or other telephone number, electronic
mail address, or other digital or electronic communication terminal, link, point
or address of any kind whatsoever that (a) you provide or use to contact us,
(b) we obtain from a third party such as an employer, friend, family member,
another creditor, or person with whom you have done business, or (c) we obtain
through any legal means, including without limitation, a caller identification
system that captures your number. You expressly consent to receiving calls,
text messages and other communications from us, our agents, affiliates,
contractors, subcontractors, and assignees on any number that is assigned to
a cellular telephone service, wired telephone service, paging service, facsimile
machine, specialized mobile radio service, radio common carrier service,
internet protocol service, or other electronic, digital or analog service that is
placed through or utilizes an automatic telephone dialing system, artificial voice
or pre-recorded message, or any other technology, even if you incur a cost
when we contact you. You accept responsibility for all costs you incur when
contacted through any of these means.
Indemnification: You agree to indemnify us for all damages, costs and
expenses, including reasonable attorney fees, we incur when we attempt
to contact you at any third party’s telephone number that you provide to us,
including any number for which you fail to notify us is no longer associated with
you as the subscriber.
E-mail: By providing us with your e-mail address, you consent to receive
correspondence electronically from us and our affiliates and service providers.
You agree that we may communicate with you by e-mail for any lawful reason.
Other Communication Devices: If you provide us with any other form of
electronic communication mechanism, you agree that we may communicate
with you by that mechanism for any lawful reason.

N

USING YOUR CARD
Sign Your Card: Be sure to sign your Card before you use it.
If You Do Not Want the Card: If you do not want the Card and Credit Account,
you must contact us by telephone or in writing asking us to close your Credit
Account.
Do Not Give Your Card to Others: Cards may not be given to anyone else to
use. Other people who want a Credit Account should apply separately.
Your Responsibility for Authorized Users: If another person is given access
to your Credit Account with your express or implied permission, notwithstanding
the provision above, that person is an Authorized User, even if we did not issue
an additional Card in the Authorized User’s name. At your request, and if we
agree, we may issue an additional Card in the name of an Authorized User with
your Credit Account number.
You will be responsible for all charges, Cash Advances, INTEREST CHARGES,
Purchases and fees incurred by any Authorized User. We are not required to
try to obtain payment from any Authorized User before requiring payment from
you.
If you wish to remove an Authorized User from your Credit Account you must
contact us either by telephone or in writing. You will still be responsible for
payment of all Purchases, Cash Advances, INTEREST CHARGES and fees
incurred or obtained by the Authorized User. We may close your existing
Credit Account and issue you a new Card and account number. You and each
Authorized User agree that we may report account information to Consumer
Reporting Agencies in the names of both you and the Authorized User.
Lost or Stolen Cards: To protect your rights, you must notify us immediately at
1-800-987-5521 if your Card is lost or stolen or if you suspect that it has been
used or may be used without your permission. If your Card is reported as lost or
stolen or you are claiming unauthorized use of your Credit Account or Card, we
may require you to file one or more reports with the appropriate law enforcement
agencies and us prior to our removal of possible unauthorized charges made
against your Credit Account. You will not be liable for unauthorized use of your
Card. Certain exceptions apply.
Refusal to Accept Your Card: We are not responsible if any person or
merchant does not accept your Card, or if an ATM or other device fails to
properly operate. All transactions, even when you get a receipt, are subject to
our final verification.
Cards Are Our Property: You agree to return each Card issued on your Credit
Account to us upon our demand.

by you, or by any Authorized User, as well as any other fees imposed by us,
as explained in this Contract. If more than one person requests or accepts the
Credit Account, each and every person individually and jointly are responsible
for payment until the account is paid in full.
Joint Account Holders: If this is a joint Credit Account, each person who
signed the application: (1) may obtain Purchases and Cash Advances not to
exceed the total credit limit; (2) will be responsible for paying all amounts owed;
and (3) can close the Credit Account.
Accessing Your Credit Line: You can use the Card and your Credit Account
to make Purchases and obtain Cash Advances. Upon your request, you may
be assigned a Personal Identification Number (PIN). If a PIN is assigned to
you, you can obtain a Cash Advance at any authorized ATM by using the Card
and PIN.
Understanding Your Credit Limit: Your “Credit Limit” is the maximum amount
of credit we have approved for your Credit Account. The amount of your
Credit Limit is printed on the card carrier containing your Card and on your
Statements. Your balance may not exceed your Credit Limit at any time. At
our sole discretion, we may honor Purchases or Cash Advances in excess of
your Credit Limit without raising your Credit Limit. If we do, we may require you
to pay us any amount over your Credit Limit immediately. Decisions on Credit
Limit increases may be based on your performance under this Credit Account
and other Related Credit Accounts you have with us and other credit criteria. If
we have previously allowed your balance to exceed your Credit Limit, it does
not mean that we will permit your balance to exceed your Credit Limit again.
We reserve the right to approve or deny authorizations or transactions from any
merchant at our sole discretion.
Obtaining Cash Advances: You may take Cash Advances on your Credit
Account in any of the following ways: By presenting the Card to us or any other
participating Mastercard® or Visa® financial institution to obtain cash, by using
the Card at an authorized merchant, other non-bank entity, or an Automated
Teller Machine (ATM) or other device to obtain cash or cash equivalent, or to
make a transfer from your Credit Account to any other deposit or loan account.
Even if you use your Credit Account to obtain cash from a non-bank entity, the
transaction will be described as a Bank Cash Advance.
You may not take Cash Advances in excess of $500.00 per day. The minimum
Cash Advance per transaction is $20.00. For Credit Accounts opened on or
after June 1, 2003, your initial Cash Advance limit will be 10% of your assigned
Credit Limit. Once your Credit Account has been open and active for a minimum
of 90 days, has two consecutive months of current payment history, is not
currently delinquent and no payments have been returned for the past 60
days, your Cash Advance availability may be increased to 50% of the assigned
Credit Limit. For example, if your Credit Limit is $250.00, your beginning Cash
Advance limit will be $25.00 and may increase to $125.00 once the criteria
above are met.

O

“Proper Form” means a payment sent by mail or courier that:
• is by check, money order, or cashier’s check payable in US dollars (do
not send cash)
• is payable to First PREMIER Bank (no third-party checks)
• includes your payment coupon, or includes your name and account
number on the check
“Related Credit Account(s)” means any Credit Accounts established using
the same Social Security Number.
“Statement” is a summary of your Credit Account activity provided to you at
the end of each Billing Cycle.
“Total Minimum Amount Due” means the total minimum amount we request
that you pay each month as indicated on your Statement. This amount includes
the Minimum Payment, any Past Due Amount and any Amount Over Limit Due,
which is the amount by which the New Balance exceeds your Credit Limit. (See
the Minimum Payment provisions on the Account Opening Disclosures printed
on the card carrier containing your Card for more information on how the “Total
Minimum Amount Due” is calculated.)
“You” and “your” mean each and every person who is authorized to use the
Credit Account, including Authorized Users, joint account holders and other
persons you authorize to use the Card.
Other important words used in this Contract begin with capital letters. They are
defined throughout this Contract.

CLOSING YOUR CREDIT ACCOUNT
We May Suspend or Close Your Credit Account: We may suspend your
Credit Account privileges or permanently cancel and close your Credit Account
at any time, for any reason.
You May Close Your Credit Account: You may cancel your Credit Account
at any time by notifying us by telephone or in writing. Even after your Credit

• To share your credit performance with Consumer Reporting Agencies
and other creditors who we reasonably believe are or may be doing
business with you on your Credit Account.
• To provide information on your Credit Account to any third party who
we believe is conducting an inquiry in accordance with the Federal Fair
Credit Reporting Act.
• To share information with our employees, agents or representatives
performing work for us in connection with your Credit Account.
• To communicate information as to our transactions or experiences with
you to persons or entities related by common ownership or affiliated by
corporate control or with any third party (including non-affiliates).
We may also share information such as: (1) information other than our
own transactions with you with persons or entities related to the Bank
by common ownership or corporate control; or (2) information on your
Credit Account with certain companies to provide or offer you selected
products, services or cardholder benefits. You may direct us not to share
one or both of these. If this is your request call 1-800-987-5521 or notify us in
writing at First PREMIER Bank, P.O. Box 5528, Sioux Falls, SD 57117-5528.
Be sure to include your name, address and Credit Account number. You may
receive a copy of our information on your Credit Account by writing or calling
us at the address or telephone number listed above. By requesting or obtaining
a Credit Account, you authorize us to check your credit history. You authorize
your employer, bank and any other references listed to release and/or verify
information to us and our affiliates in order to determine your eligibility for the
Credit Account and any renewal or future extension of credit. If you ask, you will
be told whether or not consumer reports on you were requested and the names
of the Consumer Reporting Agencies, with their addresses, that provided the
reports. If you designate an Authorized User to use your Card, you understand
that account information may also be reported to Consumer Reporting Agencies
in the Authorized User’s name.
No Waiver: Even if we do not exercise any right we may have against you, we
do not intend to waive that right. We can exercise it against you in the future.
Binding Effect Upon Death or Incompetency: If we pay a merchant for a
Purchase or post a Cash Advance to your Credit Account before we receive
actual written notice of your death or incompetence, or if we pay a merchant
for a Purchase made by you or post a Cash Advance taken by you prior to
your death or incompetence, that transaction will be a valid and binding Credit
Account obligation upon you, your estate and your personal representatives.
Our Liability To You: We have no liability to you, other than as placed on us by
law. We will meet our duty to care for your Credit Account(s) under reasonable
banking procedures. Our mere clerical error or honest mistake will not be
considered a failure to perform any of our obligations.
Transactions in Foreign Currencies: If you make a transaction in a foreign
currency, it will be converted into U.S. dollars, and you agree to accept the
converted amount. Visa USA, Inc. or Mastercard International, Inc. will use
its currency conversion procedures in effect when processing the transaction.
The currency conversion rate will be a rate selected by Visa or Mastercard, as
applicable, from the range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from the rate Visa
or Mastercard itself receives, or the government-mandated rate in effect for the
applicable central processing date, in each instance, plus a foreign currency
transaction fee in the amount disclosed on your Account Opening Disclosures
printed on the card carrier containing your Card. This fee will be paid to us
and applied to all transactions posted to your Credit Account in a foreign
currency, including all Purchase transactions, Cash Advance transactions, ATM
transactions and returns and adjustments (e.g., for returned merchandise). The
currency conversion rate used on the processing date may be different than the
rate that was in effect on the date you conducted the transaction. We do not
set the currency conversion rate, and we do not receive any portion of it. We
do, however, receive a foreign currency transaction fee as disclosed on your
Account Opening Disclosures printed on the card carrier containing your card.
Prohibition on Gambling and Illegal Transactions: Your Card and Credit
Account may not be used in connection with any gambling transaction (whether
legal or illegal). Also, your Card and Credit Account may be used only for valid
and lawful purposes. If you use, or allow someone else to use your Card or

